                                                                           Legal Services Corporation

L; LSC                                                                     Office of Inspector General




lnspector General
Jeffrey E. Schanz



        August 14,2008


        Ms. Anita Santos-Singh
        Executive Director
        Philadelphia Legal Assistance Center
        42 South 15thstreet, Suite 500
        Philadelphia, PA 19102

        Dear Ms. Santos-Singh:

        Attached is our final report on the results of our audit on Selected Internal
        Controls at Philadelphia Legal Assistance Center. We reviewed your response
        with regard to the findings in our draft report and believe the comments address
        all recommendations. Based on your comments, we consider Recommendations
        2 and 3 closed. However, since the Accounting Manual is still being updated, we
        consider Recommendation 1 open. Because you have already provided us with
        your planned actions, you do not need to submit a separate corrective action
        plan. Please notify this office in writing when you have completed updating the
        Accounting Manual.

        We want to thank you and your staff for the cooperation and assistance you
        provided us.

        Sincerely,


       f&c
                 . Schan
        lnspector General


       cc:     Legal Services Corporation
               Helaine Barnett, President




                                                                          3333 K Street, NW 3rd Floor
                                                                          Washington, DC 20007-3522
                                                                          Phone 202.295.1500 Fax 202.337.6616
                                                                          www.oig.lsc.gov
   LEGAL SERVICES CORPORATION
   OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL
        CONTROLS -



PHILADELPHIA LEGAL ASSISTANCE
           CENTER

           RNO 339000



        Report No. AU08-04
           AUGUST 2008

           www.oig .lsc.gov
                                     TABLE OF CONTENTS



INTRODUCTION..........................................................................................1

BACKGROUND............................................................................................I

OBJECTIVE ................................................................................................. I

SCOPE AND METHODOLOGY................................................................... 1

OVERALL EVALUATION ............................................................................
                                                                                            -2
RESULTS OF AUDIT ...................................................................................
                                                                                                 3

  SALARY ADVANCES ................................................................................ 3

  DISBURSEMENTS AND SUPPORTING DOCUMENTATION..................4

  INTERNAL CONTROL REVIEW OF SELECTED AREAS ........................4

  1. Absence of Updated Accounting Manual..............................................4
     Recommendation 1 .............................................................................-4

  2 . Adjusting Entries...................................................................................5
      Recommendation 2 ..............................................................................     5

  3. Bank Account Reconciliations ..............................................................5
     Recommendation 3 ..............................................................................5

OFFICE OF INSPECTOR GENERAL EVALUATION OF
 GRANTEE MANAGEMENT COMMENTS ................................................6

GRANTEE MANAGEMENT COMMENTS..................................APPENDIX I
                                INTRODUCTION

In November, 2007, management of the Legal Services Corporation (LSC)
referred for follow-up to the Office of Inspector General (OIG) instances of
internal control weakness at certain LSC grantees identified in the Government
Accountability Office (GAO) Draft Report entitled, Legal Services Corporation -
Improved Internal Controls Needed in Grants Management and Oversight or
indentified in a November 13, 2007 meeting between GAO and LSC staff. The
final GAO report (GAO-08-37) was published on December 28,2007.

LSC management requested that the OIG assess whether the issues specifically
identified by GAO had been corrected at each of grantees referred to the OIG by
management.


                                 BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO found control weaknesses at 9 of
the 14 grantee sites it visited. These weaknesses included using LSC grant
funds for expenditures with insufficient supporting documentation, and for
unusual contractor arrangements, alcohol purchases, employee interest-free
loans, lobbying fees, late fees, and earnest money.


                                  OBJECTIVE

Our overall objective was to determine whether the conditions cited in the GAO
report were corrected and controls were put in place by Philadelphia Legal
Assistance Center (grantee) to detect or prevent similar situations from recurring.
In addition, we evaluated other selected financial and administrative areas
relating to the GAO findings and tested the related controls to ensure that
expenditures were adequately supported and allowed under the LSC Act and
regulations.


                         SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process,
employee benefits and reimbursements, disbursements and internal
management reportinglbudgeting. To obtain an understanding of the internal
controls over these areas, we reviewed grantee policies and procedures,
including any manuals, guidelines, memoranda, and directives setting forth
current grantee practices. We interviewed grantee officials to obtain an
understanding of the :Internal control framework and interviewed grantee
management and staff as to their knowledge and understanding of the processes
in place.
We conducted fieldwork at the grantee's central administrative office in
Philadelphia, PA. To test for the appropriateness of expenditures and the
existence of adequate supporting documentation, we reviewed disbursements
from a judgmentally selected sample of employee and vendor files. To assess
the appropriateness of grantee expenditures, we reviewed invoices, vendor lists,
and general ledger details. The appropriateness of grantee expenditures was
based on the grant agreements, applicable laws and regulations, and LSC policy
guidance. Our grantee reviews were limited in scope and were not sufficient for
expressing an opinion on the entire system of grantee internal controls or
compliance.

The on-site fieldwork was conducted from February 25, 2008 through
February 29, 2008. Documents reviewed pertained to the period January 1,
2007 through February 21, 2008. Our work was conducted at the grantee's site
and at LSC headquarters in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                           OVERALL EVALUATION

Philadelphia Legal Assistance Center management has taken action to correct
the issues identified by GAO and implemented internal controls to prevent and
detect such issues in the future. Grantee management has taken appropriate
steps to address the specific issues raised by GAO dealing with undocumented
salary advances to employees and insufficient supporting documentation for
disbursements.

During our on-site fieldwork, the grantee had a draft written policy on salary
advances and an authorization process requiring employees to sign a statement
acknowledging the amount advanced and the monthly repayment amount.
However, the draft policy on salary advances needs to be strengthened to further
enhance internal controls.
Grantee disbursements tested were adequately supported, allowable and
properly allocated to LSC. Internal controls over the client intake process,
employee benefits and reimbursements, disbursements and internal
management reportinglbudgeting were operating in the manner expected to
ensure compliance with the LSC Act and LSC regulations. However, we did
identify three areas where internal controls could be strengthened. The grantee's
Accounting Manual has not been updated since 1996 and does not incorporate
current accounting and fiscal practices. The grantee does not treat all
adjustments to the accounting records as journal entries, and when journal
entries are made they are not reviewed or approved by a separate grantee
employee. Finally, bank account reconciliations were not reviewed and approved
by a responsible individual.


                                   RESULTS OF AUDIT

SALARY ADVANCES

GAO reported the following weaknesses when reviewing this grantee: I)grantee
employees were not required to sign contracts for salary advances; 2) since
controls over the loans were non-existent, GAO was unable to determine the
completeness of a list of outstanding employee loans; and 3) GAO identified no
authority to use LSC grant funds for interest free or other loans to grantee
employees,

Our review of these issues found that since the GAO report, LSC management
issued guidance to grantees not prohibiting salary advances to employees, but
noting the importance of written policies and procedures governing such
advances including timely repayments'. In addition we found that the grantee
developed a draft policy and instituted changes to require employees to sign
salary advancelloan agreements that specify the amount loaned and the amount
to be repaid. Based on our review, all of the advances outstanding as of
December 31, 2007, were now supported by signed agreements. The grantee
further revised the agreement to document management's approval for new
advances. The draft policy on salary advances satisfactorily addressed controls
over salary advances except that it did not specifically require repayments be
made by payroll deduction. Subsequent to our on-site fieldwork, the Director of
Finance provided us with the current policy in place on salary advances. The
policy now includes a provision requiring repayments by payroll deduction. Since
we believe this policy adequately addresses our concern, no recommendation is
necessary and the finding is considered closed.



1
 Advisorv from the President, Legal Services Corporation, to all LSC Executive Directors
regarding "Fiscal Management and Use of LSC Fundsn(March 20,2008)
DISBURSEMENTS AND SUPPORTING DOCUMENTATION

Our review of a 135 judgmentally selected disbursements, valued at $1 13,299
disclosed that all disbursements were adequately supported, allowable, and
properly allocated to LSC. The disbursements in our sample covered the period
January 1,2007 through February 21,2008.

INTERNAL CONTROL REVIEW OF SELECTED AREAS

Our review of the internal controls over the client intake process, employee
benefits and reimbursements, disbursements and internal management
reportinglbudgeting revealed that the controls are operating in the manner
expected to ensure compliance with the LSC Act and LSC regulations. We did
note three areas where internal controls could be strengthened:

   1) Absence of Updated Accounting Manual

      The grantee's Accounting Manual has not been updated since 1996 and
      does not incorporate policies and procedures describing current
      accounting and fiscal practices. In establishing an adequate internal
      control structure, each grantee must develop a written accounting manual
      that describes the specific procedures to be followed by the grantee in
      complying with the Fundamental Criteria of an Accounting and Financial
      Reporting System (Fundamental Criteria) contained in the Accounting
      Manual for LSC Recipients.

      Grantee management has, nevertheless, implemented new practices
      strengthening internal controls over banking, petty cash, approval and
      timely payment of invoices, the payroll account and pre-audit file reviews.
      These revised practices need to be formalized and incorporated into the
      grantee's Accounting Manual. Grantee management also needs to
      incorporate existing procedures over internal management reporting into
      their Accounting Manual and develop written procedures governing
      consultant contracting.

      Recommendation 1 - The Executive Director should revise and update the
      grantee's Accounting Manual to incorporate written policies and
      procedures describing the grantee's current accounting and fiscal
      practices.

      Grantee Management Comments The Executive Director stated:
            "The Executive Director will cause to be revised PLA's
            Accounting Manual to incorporate written policies and
            procedures describing PLA's current accounting and fiscal
            practices."
2) Adjusting Entries

      The grantee does not treat all adjustments to the accounting records as
      journal entries, and when these adjustments are made they are not
      reviewed or approved by a separate grantee employee. According to the
      Fundamental Criteria each entry to the general journal should be fully
      described, adequately documented, sequentially numbered, and approved
      by an authorized individual. Unsupported or poorly referenced entries are
      difficult to trace and make it difFicult to detect irregularities.

      Recommendation 2 - The Executive Director should implement and follow
      procedures contained in the Fundamental Criteria to treat all accounting
      adjustments as journal entries so that the basis for these adjustments are
      adequately documented and approved by an authorized individual.

      Grantee Management Comments The Executive Director stated:
            "The Executive Director will implement procedures contained
            in the Fundamental Criteria of an Accounting and Financial
            Reporting System contained in the Accounting Manual for
            LSC Recipients. The Executive Director and the Finance
            Director will adopt a system whereby the Executive Director
            can confirm, in writing or electronically, that she has
            reviewed and approves an adjustment to the accounting
            records."

   3) Bank Account Reconciliations

      Bank reconciliations were not conducted in accordance with the
      Fundamental Criteria, paragraph 3-5.2(d) which indicates that the
      statements shall be reconciled by an individual who has no access to
      cash, is not a regular check signer, and has no cash bookkeeping duties.
      In addition, the reconciliations shall be reviewed and approved by a
      responsible individual. The reconciliations were conducted by the Director
      of Finance because she was the only person handling the grantee's
      accounting function. The reconciliations should be approved by another
      responsible individual which would have added a needed internal control
      in this situation.

                          -
      Recommendation 3 The Executive Director should review and approve
      the bank reconciliations or appoint
                                   ..     another responsible individual to
      perform this function.
      Grantee Manaqement Comments The Executive Director stated:
            "The Executive Director will appoint the Managing Attorney
            after he has been removed as a check signer to approve
            bank reconciliations in accordance with the Fundamental
            Criteria."


     OFFICE OF INSPECTOR GENERAL EVALUATION OF GRANTEE
                    MANAGEMENT COMMENTS

Grantee management agreed with all findings and recommendations. Actions
taken or planned address the issues contained in this report. We consider
Recommendations 2 and 3 closed. However, since the update to the Accounting
Manual is not yet complete, we consider this finding open and will track
Recommendation 1 until grantee management has completed the changes to the
Manual. Because grantee management has already provided us with their
planned actions, no separate corrective action plan is required.
                                                                                        APPENDIX I


                                                                       42 SOUTH I ~ TSTREFF,
                                                                                     H       sum    mo
                                                                 PHILADELPHIA, PENNSYLVANIA 19102-2205
                                                                               TELEPHONE: 215-981-3800
                                                                                      FAX: 215-981-3860
                                                                                 WWW.PHILALEGAL.ORG




August 1,2008


Ronald D. Merryman
Assistant Inspector General for Audit
Office of inspector General
Legal Services Corporation
3333 K Street, NW, 3n' Floor
Washington, DC 20007-3522

RE:    Comments on the OIG's Draft Report on Selected Internal Controls
       at Philadelphia Legal Assistance Center, Inc.

Dear Mr. Merryman:

Kindly accept this letter as Philadelphia Legal Assistance Center's (PLA)response to the OIG's
Draft Report on Selected Internal Controls dated July 2008. The Draft Report has been reviewed
by PLA management, PLA's Audit and Finance Committee and its Board of Directors. On July
17,2008, upon recommendation of the Audit and Finance Committee, PLA's Board of Directors
voted to adopt the three recommendations outlined in the OIG Draft Report. More specifically,
the Board voted in favor of the following actions to implement the three recommendations:

Recommendation 1: The Executive Director will cause to be revised PLA's Accounting
                  Manual to incorporate written policies and procedures describing PLA's
                  current accounting and fiscal practices.

Recommendation 2: The Executive Director will implement procedures contained in the
                  Fundamental Criteria of an Accounting and Financial Reporting System
                  contained in the Accounting Manual for LSC Recipients. The Executive
                  Director and the Finance Director will adopt a system whereby the
                  Executive Director can confirm,in writing or electronically, that she has
                  reviewed and approves an adjustment to the accounting records.

Recommendation 3: The Executive Director will appoint the Managing Attorney after he has
                  been removed as a check signer to approve bank reconciliations in
                  accordance with the Fundamental Criteria.

I am pleased to report that Recommendations 2 and 3 have already been implemented. We are
still working to complete the first Recommendation. I hope that our response is satisfactory.


                                        &!I-      LSC
                                           ~mwicasmmr
                                            For    JiSliCe
    Merryman, Ronald D.
    Page 2


    However, if there is any fiuther follow-up required, please contact me at (215) 98 1-3808 or
    asanto&,ohilalega1.org.
                      A




/
    Executive Director
